                                   SOCIAL SECURITY
MEMORANDUM

Date:   December 19, 2008                                                Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Disability Claims Overall Processing Times (A-01-08-18011)



        The attached final report presents the results of our review. Our objective was to
        determine the Social Security Administration's average overall processing time for
        disability claims decided by Disability Determination Services, Administrative Law
        Judges, the Appeals Council and Federal Courts.

        Please provide within 60 days a corrective action plan that addresses the
        recommendation. If you wish to discuss the final report, please call me or have your
        staff contact Steven L. Schaeffer, Assistant Inspector General for Audit, at
        (410) 965-9700.


                                                       S
                                                       Patrick P. O’Carroll, Jr.

        Attachment
           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


       DISABILITY CLAIMS
    OVERALL PROCESSING TIMES

     December 2008   A-01-08-18011




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                                 Executive Summary
 OBJECTIVE
 Our objective was to determine the Social Security Administration's (SSA) average
 overall processing time for disability claims decided by Disability Determination Services
 (DDS), Administrative Law Judges (ALJ), the Appeals Council (AC) and Federal Courts.

 BACKGROUND
 SSA provides Social Security Disability Insurance and Supplemental Security Income
 disability benefits to eligible individuals under Title II and Title XVI of the Social Security
 Act. To receive either benefit, an individual must first file an application with SSA. The
 SSA Field Office then determines whether the individual meets the non-disability criteria
 for benefits, and if so, forwards the claim to a State DDS for a disability determination.

 If the applicant disagrees with the initial disability determination, he or she can file an
 appeal within 60 days from the date of being notified of the determination. In most
 cases, there are four levels of appeal, including a: (1) reconsideration by the DDS,
 (2) hearing by an ALJ, (3) review by the AC and (4) review by the Federal Courts.

 RESULTS OF REVIEW
 We determined the average overall processing time for disability claims completed in
 Calendar Year 2006 from the date of application to the date of denial or the date
 benefits were paid at time of allowance (including any back payments).

                                                 DDS                                    Federal
     Sample Cases for 2006                                            ALJ      AC
                                      Initial   Reconsideration                         Courts

Office of the Inspector General’s
Measure of Average Overall             131             279            811     1,053      1,720
Processing Time (in days)




 Disability Claims Overall Processing Times (A-01-08-18011)                                i
CONCLUSION AND RECOMMENDATION
We believe the processing times determined in our review may assist SSA and the
Congress in making decisions about the disability programs. According to SSA’s
Strategic Plan, “[the Agency’s] effectiveness will be determined by how well [SSA]
meets the needs and expectations of the American people. Its success will also be
measured by how we manage resources to provide services and benefits in a way that
is responsive to the American public.”

Therefore, we recommend SSA develop and publish a measure that shows the overall
disability processing time from the claimant’s perspective.

AGENCY COMMENTS
SSA agreed that the recommendation would benefit the Agency, Congress, the public,
and prospective disability claimants. The Agency stated it previously considered using
this type of performance measure but did not move forward because it was unable to
capture the management information necessary to calculate this measure. Further,
SSA stated that making systems changes to capture additional data would require
redirecting already limited resources.




Disability Claims Overall Processing Times (A-01-08-18011)                         ii
                                                                    Table of Contents
                                                                                                             Page

INTRODUCTION.....................................................................................................1

RESULTS OF REVIEW ..........................................................................................3

     DDS Sample Results ........................................................................................3

     ALJ Sample Results .........................................................................................6

     Appeals Council Sample Results......................................................................8

     Federal Courts Sample Results......................................................................10

CONCLUSION AND RECOMMENDATION .........................................................13

APPENDICES

APPENDIX A – Acronyms

APPENDIX B – Scope, Methodology and Sample Results

APPENDIX C – The Social Security Disability Claims Process

APPENDIX D – Agency Comments

APPENDIX E – OIG Contacts and Staff Acknowledgments




Disability Claims Overall Processing Times (A-01-08-18011)
                                                                               Introduction
OBJECTIVE
Our objective was to determine the Social Security Administration's (SSA) average
overall processing time for disability claims decided by Disability Determination Services
(DDS), Administrative Law Judges (ALJ), the Appeals Council (AC) and Federal Courts.

BACKGROUND

SSA provides Social Security Disability Insurance (DI) and Supplemental Security
Income (SSI) disability benefits to eligible individuals under Title II and Title XVI of the
Social Security Act. To receive either benefit, an individual must first file an application
with SSA. Once an application is filed, the SSA Field Office (FO) determines whether
the individual meets the non-disability criteria for benefits, 1 and if so, forwards the claim
to the DDS for a disability determination. Once the DDS makes a determination, it
sends the claim back to the FO for final processing 2 or to the Disability Quality Branch
(DQB) for review prior to final processing. 3

If the applicant disagrees with the initial disability determination, he or she can file an
appeal within 60 days from the date of notice which notified the individual of the
determination. In most cases, there are four levels of appeal, including a:
(1) reconsideration by the DDS, (2) hearing by an ALJ, (3) review by the AC and
(4) review by the Federal Courts. 4

In its annual Performance and Accountability Report, SSA has performance measures
for the average processing times of (1) initial disability claims (2) hearing decisions and
(3) AC decisions. Each measure is designed to capture the average processing time for
a specific segment of the disability process, instead of the average overall processing
time. For example, the performance measure for hearings captures the average
processing time from the date the claimant requests a hearing to the date the ALJ

1
 For DI benefits, the non-disability criteria includes such factors as sufficient earnings, while for SSI
benefits, the non-disability criteria includes such factors as low income and resources.
2
  If the FO cannot process the claim or partially processes the claim (i.e., initiates payment but does not
issue any back payments), then it will send the claim to the Payment Service Center (PSC) for final
processing.
3
 DQB selects half the DDS’ allowances and a statistically valid sample of DDS’ denials. In the DQB, a
Federal quality reviewer reviews each sample case to determine whether the record supports the
determination and whether the evidence and determination conform to SSA operating policies and
procedures.
4
 The reconsideration step of the appeals process is eliminated for DDSs participating in the Disability
Redesign Prototype (Alabama, Alaska, California—Los Angeles North and Los Angeles West Branches,
Colorado, Louisiana, Michigan, Missouri, New Hampshire, New York and Pennsylvania).


Disability Claims Overall Processing Times (A-01-08-18011)                                                    1
renders a decision, not from the date the claimant first files an application to the date
the ALJ denies the claim or allows the claim and SSA issues the benefits.

See the table below for the average processing times that SSA reported on in its Fiscal
Year (FY) 2006 Performance and Accountability Report.

                Average Processing Times Reported by SSA in FY 2006
   Initial Disability Claims          Hearing Decisions                AC Decisions
            88 days                         483 days                      203 days

In July 2007, at the DDS Management Meeting, SSA expressed interest in having
information on the overall processing time for disability claims to assist in making
decisions about the disability programs. For this reason, we conducted this review to
determine processing time from a claimant’s perspective, which was how long it took,
on average, for a claimant to go through the entire disability process from the date he or
she filed an application until the date SSA denied the claim or awarded the claim and
issued the benefits due at that time.

To perform our review, we obtained files of all disability decisions made in Calendar
Year (CY) 2006. From these files, we identified:

      2,618,926 individuals who received initial/reconsideration determinations from
       DDSs,
      480,529 individuals who received decisions from an ALJ,
      64,473 individuals who received decisions from the AC, and
      8,102 individuals who received decisions from the Federal Courts.

We also obtained a file of disability decisions made in CY 2007. From this file, we
identified 2,662,212 individuals who received initial/reconsideration determinations from
DDSs.

We then randomly selected 275 sample cases from each DDS population and
100 sample cases from each of the other populations—for a total of 850 cases—and
conducted a detailed analysis to determine the average overall processing time and the
average processing times based on SSA’s performance measures. (See Appendix B
for more information on scope, methodology and sampling.)




Disability Claims Overall Processing Times (A-01-08-18011)                                  2
                                                            Results of Review
As shown in the table below, we determined the average overall processing time for
disability claims completed in CY 2006 from the date of application to the date of denial
or the date benefits were paid at time of allowance (including any back payments).

                                                      DDS                                         Federal
     Sample Cases for 2006                                                   ALJ        AC
                                         Initial    Reconsideration                               Courts

Office of the Inspector General’s
Measure of Average Overall                 131              279              811       1,053       1,720
                          5
Processing Time (in days)

DDS SAMPLE RESULTS

The DDS obtains and evaluates evidence from medical and other sources to determine
whether a claimant is disabled. If the claimant is dissatisfied with the DDS
determination, the claimant may request that the DDS reconsider it. 6

Based on our review of 275 sample cases with a DDS determination in CY 2006, we
determined that it took SSA 131 days, 7 on average, to completely process an initial
claim—ranging from 16 days to about a year. 8 SSA measures the average processing
time from the application date to the date of denial or date the award is processed. This
measure does not capture all the processing time because sometimes the Agency
determines the back payments after it processes an award.




5
 Since we measured the average overall processing time from the date of application to the date of
denial or the date benefits were paid at time of allowance (including any back payments), it includes time
which SSA has no control over such as mail time and time for the claimant to request an appeal—which
we called “Down Time.” SSA also has no control over the time it takes the Federal Courts to review a
case and render a decision.
6
 The reconsideration step of the appeals process is eliminated for DDSs participating in the Disability
Redesign Prototype (Alabama, Alaska, California—Los Angeles North and Los Angeles West Branches,
Colorado, Louisiana, Michigan, Missouri, New Hampshire, New York and Pennsylvania).
7
 Assuming the processing time of the population of DDS cases with determinations in CY 2006 is
normally distributed and using inferential statistical techniques, we are 90 percent confident that the
average processing time for the entire population would be found between 124 and 137 days.
8
  Of the 275 sample cases, the DDSs allowed 91 cases (33 percent) and denied 184 cases (67 percent).
For the 91 allowances, it took SSA 48 days, on average, to initiate payment following a DDS
determination and an additional 8 days (including mail time and processing time), on average, to issue
the back payments.


Disability Claims Overall Processing Times (A-01-08-18011)                                                  3
Using SSA’s measure, we determined the average processing time for initial disability
claims was 121 days. In its FY 2006 Performance and Accountability Report, SSA
reported this processing time was 88 days. We calculated more processing time than
SSA did because—unlike SSA’s measure—our measure was only for claims that met
the non-disability criteria for benefits and, therefore, needed to be reviewed by a DDS. 9
In FY 2006, SSA denied 610,681 claims that did not need to be reviewed by a DDS.

The following timeline shows (1) the average overall processing time for initial disability
claims by component, 10 (2) the average processing time we calculated using SSA’s
measure and (3) the average processing time reported by SSA.

                                  Average Overall Processing Time (131 days)
Claimant                                                                                            Claim
First                                                                              PSC - 2 Days     Completed
Applied
for                                                                      DQB - 3 Days
Disability
              FO - 21 Days                                       DDS - 92 Days                    Down Time - 13 Days



              20             40            60            80                 100             120              140




Claimant              Average Processing Time Calculated by OIG                         SSA Processed
First                         Using SSA's Measure (121 days)                            Initial Disability
Applied                                                                                 Determination
for
Disability   Average Processing Time Reported by SSA (88 days)
                                                              SSA Processed
                                                              Initial Disability
                                                              Determination




9
  According to the Annual Performance Plan for FY 2009 and revised Final Performance Plan for
FY 2008, SSA modified its measure for the average processing time for initial disability claims to only
include claims that met the non-disability criteria for benefits.
10
  The component processing times combine all the days that each component had the case and do not
necessarily fall in adjudicative order on the timeline. For example, the FO average processing time of
21 days includes time before the claim was sent to a DDS (15 days on average) and time for processing
the claim after it was returned from DDS (6 days on average). Furthermore, some components did not
process every claim. For example, DQB reviewed only 39 of the 275 initial disability determinations.


Disability Claims Overall Processing Times (A-01-08-18011)                                                              4
For example, as shown in the flowchart below, a claimant filed an application in
February 2006 and was allowed a month later by the DDS. DQB then selected this
case for review and, upon finding no errors, sent the case to the FO for processing. In
May 2006, the FO processed the claim and initiated payment. In June 2006, the PSC
issued the back payments due the claimant at that time. It took SSA 145 days to
completely process this claim and 100 days to process the claim from the application
date to the award processing date.
                                                   CLAIM STARTED
                                            February 2006 - Claimant filed application
                                                          FO sent claim to DDS



                                                                                           March 2006 - DDS allowed claim




            CLAIM COMPLETED
     June 2006 - PSC issued back payments                                          March 2006 - DQB selected case for review
                                                                                   DQB agreed with allowance and sent case to FO




                                               May 2006 - FO initiated payment



Of the 275 sample cases, 54 had a reconsideration determination in 2006. 11 Based on
our review of these 54 cases, we determined that it took SSA 279 days, on average, to
completely process a reconsidered claim—ranging from about 4 to 16 months. SSA
does not have a performance measure for the processing time of reconsiderations. The
following timeline shows the average overall processing time for reconsideration
disability claims by component. 12
                                         Average Overall Processing Time (279 days)
 Claimant                                                                                                          Claim
 First                                                                                                             Completed
 Applied
 for                                                                               DQB - 2 Days
 Disability
                     FO - 29 Days                                         DDS - 185 Days                      Down Time - 63 Days



                    40              80             120              160                  200            240             280




11
  Of these 54 cases, the DDSs upheld the initial determination in 48 cases and reversed the initial
determination in 6 cases.
12
  The Down Time of 63 days includes 49 days during which SSA was waiting for the claimant to request
an appeal.


Disability Claims Overall Processing Times (A-01-08-18011)                                                                          5
We also reviewed a sample of 275 cases with a DDS determination in 2007. Based on
this review, we determined that it took SSA 121 days, 13 on average, to completely
process an initial claim—ranging from 22 days to about a year. 14 We also determined
that it took SSA 115 days, on average, to process an initial claim from the application
date to the date of denial or the date the award was processed.

Of the 275 sample cases, 61 had a reconsideration determination in 2007. 15 Based on
our review of these 61 cases, we determined that it took SSA 283 days, on average, to
completely process a reconsideration claim—ranging from about 3 months to over a
year.

The average overall processing times for initial disability claims in CY 2007 (121 days)
was 10 days less than the average overall processing times in CY 2006 (131 days).

ALJ SAMPLE RESULTS

A claimant may request a hearing before an ALJ if he or she is dissatisfied with the
reconsideration determination. When the claimant does not waive his or her right to
appear at the hearing, the ALJ reviews information obtained from questioning the
claimant, his or her representative and witnesses. In addition, the ALJ reviews the
evidence on file and any additional evidence submitted for consideration. The ALJ then
issues a decision.

Based on our review of 100 sample cases, we determined that it took SSA 811 days, 16
on average, to completely process a disability claim through the hearing level—ranging
from about 6 months to just over 4 years. 17 SSA measures the average processing
time from the date the claimant requests a hearing until the date the ALJ issues a
decision, which we determined was 482 days for our sample cases. In the FY 2006

13
  Assuming the processing time of the population of DDS cases with a determination in 2007 is normally
distributed and using inferential statistical techniques, we are 90 percent confident that the average
processing time for the entire population would be found between 115 and 127 days.
14
  Of the 275 sample cases, the DDSs allowed 93 cases (34 percent) and denied 182 cases (66 percent).
Two claimants died before payments could be initiated. For the remaining 91 allowances, it took SSA
30 days (including mail time and processing time), on average, to initiate payment following a DDS
determination and an additional 11 days, on average, to issue the back payments.
15
  Of these 61 cases, the DDSs upheld the initial determination in 50 cases and reversed the initial
determination in 11 cases.
16
   Assuming the processing time of the population of ALJ cases is normally distributed and using
inferential statistical techniques, we are 90 percent confident that the average processing time for the
entire population would be found between 762 and 859 days.
17
  Of the 100 sample cases, the ALJs upheld the decision in 24 cases, reversed the decision in 68 cases
and dismissed 8 cases. Payments could not be initiated for 1 case because the claimant was working.
For the remaining 67 reversals, it took SSA 38 days, on average, to initiate payment following an ALJ
decision and an additional 46 days (including mail time and processing time), on average, to issue the
back payments.


Disability Claims Overall Processing Times (A-01-08-18011)                                                 6
Performance and Accountability Report, SSA reported the average processing time for
hearing decisions was 483 days.

The following timeline shows the average overall processing time for ALJ cases by
component as well as the average processing time we calculated using SSA’s
measure. 18

     Claimant                        Average Overall Processing Time (811 days)
     First                                                                                                Claim
     Applied                                                                                              Completed
     for                                                                                  PSC - 41 Days
     Disability
                                                                                   DQB - 1 Day

            FO - 65 Days         DDS - 151 Days                              ALJ - 456 Days          Down Time - 97 Days




                  75       150     225      300       375     450      525        600         675     750       825




                              Claimant                                                  ALJ Issued
                             Requested                                                   Decision
                              Hearing               Average Processing Time
                                                  Calculated by OIG Using SSA's
                                                       Measure (482 days)




18
  The Down Time of 97 days includes 69 days during which SSA was waiting for the claimant to request
an appeal.


Disability Claims Overall Processing Times (A-01-08-18011)                                                                 7
For example, as shown in the flowchart below, a claimant filed an application in
March 2004, which the DDS denied. The claimant then requested a reconsideration,
which the DDS also denied. In February 2005, the claimant requested a hearing by an
ALJ, who allowed the claim in February 2006. In March 2006, the PSC initiated
payment, and in May 2006, issued the back payments that were due at that time. It
took SSA about 2 years to completely process this claim and about a year to process
the claim from the hearing request date to the ALJ decision date.

                                                     CLAIM STARTED
                                              March 2004 - Claimant filed application
                                              May 2004 - FO sent claim to DDS



                                                                                        July 2004 - DDS denied initial claim




            CLAIM COMPLETED
     March 2006 - PSC initiated payments                                     September 2004 - Claimant requested reconsideration
     May 2006 - PSC issued back payments                                     December 2004 - DDS denied reconsideration




                                           February 2005 - Claimant requested hearing
                                           March 2005 - FO sent claim to ALJ
                                           February 2006 - ALJ allowed claim




APPEALS COUNCIL SAMPLE RESULTS

A claimant may request the AC to review his or her case if dissatisfied with the ALJ’s
decision. If the AC agrees to review the case, it will consider the evidence on file, any
additional evidence submitted by the claimant and the ALJ’s findings and conclusions.
The AC will then: (1) uphold or reverse the ALJ’s decision or (2) remand the case to the
ALJ to issue a new decision, to obtain additional evidence or to take additional action.




Disability Claims Overall Processing Times (A-01-08-18011)                                                                         8
Based on our review of 100 sample cases, we determined it took SSA 1,053 days, 19 on
average, to completely process a disability claim through the AC level—ranging from
about a year to just under 10 years. 20 SSA measures the average processing time from
the date the claimant requests an AC review to the date the AC makes a decision,
which we determined was 211 days for our sample cases. In the FY 2006 Performance
and Accountability Report, SSA reported the average processing time for Appeals
Council decisions was 203 days.

The following timeline shows the average overall processing time for AC cases by
component as well as the average processing time we calculated using SSA’s
measure. 21

     Claimant                             Average Overall Processing Time (1,053 days)                            Claim
     First                                                                                                        Completed
     Applied                DQB - 1 Day                                                          PSC - 4 Days
     for
     Disability   DDS - 139 Days                                                       AC - 176 Days

             FO - 63 Days                                                 ALJ - 520 Days                        Down Time - 150 Days



                   100        200         300    400      500       600      700           800       900         1000      1100




                                                         Claimant Requested                            AC Issued
                                                        Review of ALJ Decision                         Decision

                                                            Average Processing Time Calculated by
                                                             OIG Using SSA's Measure (211 days)




19
   Assuming the processing time of the population of AC cases is normally distributed and using
inferential statistical techniques, we are 90 percent confident that the average processing time for the
entire population would be found between 981 and 1,124 days.
20
  Of the 100 sample cases, the AC declined to review 92 cases, reversed the decision in 6 cases and
dismissed 2 cases. The AC changed one decision from an allowance to a denial. For the remaining
5 reversals, it took SSA 95 days, on average, to initiate payment following the AC decision and an
additional 18 days (including mail time and processing time), on average, to issue the back payments.
21
  The Down Time of 150 days includes 97 days during which SSA was waiting for the claimant to request
an appeal.


Disability Claims Overall Processing Times (A-01-08-18011)                                                                             9
For example, as shown in the flowchart below, a claimant filed his application in
October 1999. The DDS denied his application and the ALJ upheld the decision. In
November 2000, the claimant requested the AC review his case. After reviewing the
case, the AC remanded it to the ALJ, who upheld the decision again. Then, in
January 2006, the AC reviewed the case once more, and this time upheld the decision.
It took SSA about 6 years to completely process this claim and about 5 years to process
the claim from the AC request date to the AC decision date. However, while appealing
this claim, the claimant filed a new initial claim in November 2000, which the DDS
allowed in 2001.

                                                CLAIM STARTED
                                        October 1999 - Claimant filed application
                                        November 1999 - FO sent claim to DDS



        CLAIM COMPLETED
 January 2006 - AC upheld denial decision                                           February 2000 - DDS denied initial claim




 October 2004 - ALJ upheld denial decision                                          March 2000 - Claimant requested hearing
                                                                                    October 2000 - ALJ upheld denial decision




                                     November 2000 - Claimant requested AC review
                                     July 2002 - AC remanded case to ALJ




FEDERAL COURTS SAMPLE RESULTS

The claimant may file a suit with a Federal District Court if he or she is dissatisfied with
SSA’s decision. The Federal District Court reviews all evidence on file as well as the
ALJ’s and AC findings and conclusions. The court then upholds or reverses SSA’s
decision or remands the case to SSA for a new decision. If it does not find in favor of
the claimant, he or she can continue to appeal to the U.S. Circuit Court of Appeals and
ultimately to the Supreme Court of the United States.




Disability Claims Overall Processing Times (A-01-08-18011)                                                                 10
Based on our review of 100 sample cases, we determined that it took 1,720 days, 22 on
average, to completely process a disability claim through the Federal Courts level—
ranging from about 2½ years to about 14 years. 23 SSA has no control over how long it
takes the Federal Courts to review a case and render a decision, nor does SSA have
any performance measures associated with these cases.

The following timeline shows the average overall processing time for Federal Court
cases by component. 24


 Claimant                          Average Overall Processing Time (1,720 days)                            Claim
 First                                                                                                     Completed
 Applied
 for             DDS - 143 Days                               AC - 227 Days            PSC - 16 Days
 Disability
              FO - 63 Days                  ALJ - 555 Days           Federal Courts - 436 Days         Down Time - 280 Days



                   175       350      525       700          875      1050      1225       1400    1575         1750      1925




22
   Assuming the processing time of the population of ALJ cases is normally distributed and using
inferential statistical techniques, we are 90 percent confident that the average processing time for the
entire population would be found between 1,583 and 1,858 days.
23
   Of the 100 sample cases, the Federal Courts upheld SSA’s decisions in 80 cases, dismissed 11 cases
and reversed 9 cases. For the 9 reversals, it took SSA 126 days, on average, to initiate payment
following the Federal Court decision and an additional 40 days (including mail time and processing time),
on average, to issue the back payments.
24
  The Down Time of 280 days includes 165 days during which SSA was waiting for the claimant to
request an appeal.


Disability Claims Overall Processing Times (A-01-08-18011)                                                                       11
For example, as shown in the flowchart below, a claimant filed her application in
April 1993. The DDS denied her application (at both the initial and reconsideration
levels) and the ALJ upheld the denial decision. The claimant then requested that the
AC review her case, but it denied her request. In November 1997, she filed a suit with
the Federal District Court. Over the next several years, the Federal District Court
remanded her case to SSA twice, and each time, SSA upheld its decision. Then, in
March 2006, the Federal District Court reversed SSA’s decision and requested SSA to
award the claimant benefits. In January 2007, the PSC initiated payment, and in
April 2007, it issued the back payments that were due at that time. It took almost
14 years for this claim to go through the disability process.

                                                        CLAIM STARTED
                                     April 1993 - Claimant filed application, FO sent claim to DDS
                                     August 1993 - DDS denied initial claim


    CLAIM COMPLETED
   January 2007 - PSC initiated payments
                                                                                           October 1993 - Claimant requested reconsideration
   April 2007 - PsC paid back payments
                                                                                           July 1994 - DDS denied reconsideration




July 2001 - Federal Court remanded case to SSA
                                                                                             September 1994 - Claimant requested hearing by ALJ
January 2004 - ALJ upheld denial decision, case sent back to Federal Court
                                                                                             November 1996 - ALJ upheld denial decision
March 2006 - Federal Court reversed SSA's decision




November 1997 - Claimant filed a suit with the Federal Court
                                                                                      January 1997 - Claimant requested AC review
July 1998 - Federal Court remanded case to SSA
                                                                                      September 1997 - AC denied request
November 1999 - ALJ upheld denial decision, case sent back to Federal Court




Disability Claims Overall Processing Times (A-01-08-18011)                                                                                        12
                                                       Conclusion and
                                                      Recommendation
During the course of this review, we determined how long it took, on average, for a
claimant to go through the entire disability process from the date he or she filed an
application until the date SSA denied the claim or awarded the claim and issued the
benefits due at that time. This processing time, which is based on the claimant's
perspective, may amount to years, during which time, a claimant’s condition may
worsen or additional evidence may become available. As a result, he or she may be
denied benefits at one adjudicative level and later allowed at another adjudicative level.

While our measure tracks the amount of time it takes a person to go through the entire
process, SSA’s measures track the amount of time it takes a person to go through
specific segments of the disability process for the purpose of managing the workloads
within each component.

We believe that the processing times determined in this review may assist SSA and the
Congress in making decisions about the disability programs—which is especially
important in light of the increasing number of baby-boomers entering their “disability
prone” years.

According to SSA’s Strategic Plan, “[the Agency’s] effectiveness will be determined by
how well [SSA] meets the needs and expectations of the American people. Its success
will also be measured by how we manage resources to provide services and benefits in
a way that is responsive to the American public.”

Therefore, we recommend SSA develop and publish a measure that shows the overall
disability processing time from the claimant’s perspective.

AGENCY COMMENTS
SSA agreed that the recommendation would benefit the Agency, Congress, the public,
and prospective disability claimants. The Agency indicated it previously considered
using this type of performance measure but did not move forward because it was
unable to capture the management information necessary to calculate this measure.
Further, SSA indicated that making systems changes to capture additional data would
require redirecting already limited resources. (See Appendix D for the full text of SSA’s
comments.)




Disability Claims Overall Processing Times (A-01-08-18011)                              13
                                            Appendices




Disability Claims Overall Processing Times (A-01-08-18011)
                                                             Appendix A

Acronyms
 AC                Appeals Council
 ALJ               Administrative Law Judge
 CY                Calendar Year
 DDS               Disability Determination Services
 DI                Disability Insurance
 DQB               Disability Quality Branch
 FO                Field Office
 FY                Fiscal Year
 OIG               Office of the Inspector General
 PSC               Payment Service Center
 SSA               Social Security Administration
 SSI               Supplemental Security Income




Disability Claims Overall Processing Times (A-01-08-18011)
                                                                                  Appendix B

Scope, Methodology and Sample Results
To achieve our objective, we:

            Reviewed the Social Security Act and Social Security Administration (SSA)
             regulations, rules, policies and procedures on disability case processing and
             routing.
            Reviewed prior Governmental Accountability Office and Social Security Advisory
             Board reports on the overall administration of SSA's disability programs.
            Reviewed SSA's Performance and Accountability Reports for Fiscal Years 2006
             and 2007 and Annual Statistical Report on the Social Security Disability
             Insurance Program, 2007.
            Obtained data files of all disability decisions made in Calendar Year (CY) 2006.
             From these files, we identified the latest decision on a claim. We then excluded
             any decision to remand a claim to a lower adjudicative level. Through this
             analysis, we identified:

              2,618,926 individuals who received initial/reconsideration determinations
               from the Disability Determination Services (DDS); 1
              480,529 individuals who received decisions from an Administrative Law
               Judge (ALJ);
              64,473 individuals who received decisions from the Appeals Council (AC);
               and
              8,102 individuals who received decisions from the Federal Courts.

           Obtained a data file of all disability decisions made in CY 2007, and through
            analysis, identified 2,662,212 individuals who received initial/reconsideration
            determinations from DDSs. 2

           Randomly selected 275 sample cases from each DDS population and
            100 sample cases from each of the other populations—for a total of 850 cases.
            For each case, we:




1
 Some of these individuals had a DDS reconsideration determination in 2006 but the initial determination
was in 2005.
2
 Some of these individuals had a DDS reconsideration determination in 2007 but the initial determination
was in 2006.


Disability Claims Overall Processing Times (A-01-08-18011)                                           B-1
         Reviewed records from SSA’s systems such as the Disability Determination
          Services Query and the Office of Hearings and Appeals Query.
         Reviewed documents in SSA’s electronic disability folder.
         Calculated the number of days from the date of application to the date of
          denial or the date all benefits were paid that were due at the time of
          allowance. 3
       Used the results of these calculations to determine the average overall
        processing time of disability claims.

       Determined (1) the average processing time within each component and (2) the
        average processing time of initial disability claims, hearing decisions and Appeals
        Council decisions based on SSA’s performance measures.

We conducted our audit between June and September 2008 in Boston, Massachusetts.
The entities audited were SSA's field offices, DDSs and Payment Service Centers under
the Deputy Commissioner for Operations; SSA’s Disability Quality Branches under the
Deputy Commissioner for Quality Performance; and SSA’s ALJs and AC under the
Deputy Commissioner for Disability Adjudication and Review. We conducted this
performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We tested the data obtained for our audit
and determined them to be sufficiently reliable to meet our objective. We believe the
evidence obtained provides a reasonable basis for our findings and conclusions based
on our audit objectives.

SAMPLE RESULTS

                    Table 1: 2006 Initial Disability Determinations
                 Population size                           2,618,926
                 Sample size                                     275
                                 Overall Processing Time
                 Average Overall Processing Time            131 days
                 Lower Limit                                124 days
                 Upper Limit                                137 days
                    Note: The limits above reflect a 90-percent confidence interval.




3
 When we could not obtain either of these dates for a sample case, we replaced it with another sample
case. In total, we replaced 6 ALJ cases, 4 AC cases and 18 Federal Court cases.


Disability Claims Overall Processing Times (A-01-08-18011)                                         B-2
                   Table 2: 2007 Initial Disability Determinations
                Population size                           2,662,212
                Sample size                                     275
                                Overall Processing Time
                Average Overall Processing Time            121 days
                Lower Limit                                115 days
                Upper Limit                                127 days
                   Note: The limits above reflect a 90-percent confidence interval.



                 Table 3: 2006 Administrative Law Judge Decisions
                Population size                         480,529
                Sample size                                 100
                              Overall Processing Time
                Average Overall Processing Time                       811 days
                Lower Limit                                           762 days
                Upper Limit                                           859 days
                   Note: The limits above reflect a 90-percent confidence interval.



                      Table 4: 2006 Appeals Council Decisions
                Population size                             64,473
                Sample size                                    100
                                Overall Processing Time
                Average Overall Processing Time         1,053 days
                Lower Limit                               981 days
                Upper Limit                             1,124 days
                   Note: The limits above reflect a 90-percent confidence interval.



                        Table 5: 2006 Federal Court Decisions
                Population size                              8,102
                Sample size                                    100
                                Overall Processing Time
                Average Overall Processing Time         1,720 days
                Lower Limit                             1,583 days
                Upper Limit                             1,858 days
                   Note: The limits above reflect a 90-percent confidence interval.




Disability Claims Overall Processing Times (A-01-08-18011)                            B-3
                                                                                      Appendix C

The Social Security Disability Claims Process
The Social Security disability process begins when a person files a disability claim and
does not end until SSA completes the claim. As a claim moves through the process, it
goes through a network of components, with each component responsible for some
aspect of the claim. The components involved in the process may include the: Field
Offices (FO), Disability Determination Services (DDS), Disability Quality Branches
(DQB), Payment Service Centers (PSC), Administrative Law Judges (ALJ), the Appeals
Council (AC) and Federal Courts.

FO Role

The FO assists a claimant with completing an application for disability benefits and any
subsequent requests for appeal. Once the appropriate form(s) is completed, the FO
sends the claim to the appropriate component for further processing—as long as the
claimant meets the non-disability criteria for benefits 1 —and may receive the claim again
at some point for final processing. 2

DDS Role

The DDS is a State-run agency that makes disability determinations for SSA. At most
DDSs, a disability examiner, using SSA’s regulations, policies, and procedures, obtains
the relevant medical evidence and then, working with a physician and/or a psychologist,
evaluates the case and determines whether the claimant is disabled under the Social
Security Act. 3

DQB Role

To ensure a high level of accuracy, DQBs review half the initial and reconsideration
allowances and a statistically valid sample of initial and reconsideration denials made at
each DDS. In the DQB, a Federal quality reviewer reviews each case to determine
whether the evidentiary record supports the determination, and the evidence and
determination conform to SSA operating policies and procedures. If the DQB finds the
DDS determination is not supported, it will return the claim to the DDS to reverse the
determination or gather additional evidence.

1
 SSA may defer developing whether a person meets the non-disability criteria until receipt of a favorable
medical decision from a DDS.
2
 If the FO cannot process or partially processes the claim, then it will send the claim to the PSC for final
processing.
3
 At other DDSs, where single decision makers are used, a disability examiner can generally make the
disability determination without signoff from a State agency physician or psychologist.


Disability Claims Overall Processing Times (A-01-08-18011)                                                C-1
PSC Role

The PSC processes favorable hearing decisions and AC review and Federal Court
decisions. It also processes initial disability determinations when the FO cannot
complete them, such as when it needs assistance in determining the amount of back
payments due to the claimant.

ALJ Role

An ALJ conducts a hearing. Before the hearing, the claimant and his or her
representative may examine the evidence used in making the determination under
appeal or submit new evidence. At the hearing, the ALJ can question the claimant and
any witnesses the claimant brings to the hearing. The ALJ may request other
witnesses, such as medical or vocational experts, to testify at the hearing. The claimant
and his or her representative may also question the witnesses.

The ALJ issues a decision based on all the evidence, unless the claimant waives the
right to appear at the hearing. When this happens, the ALJ makes a decision based on
the evidence on file and any new evidence submitted for consideration.

AC Role

The AC, which consists of administrative appeals judges, looks at all requests for review
and considers the evidence on file, any additional evidence submitted by the claimant
and the ALJ’s findings and conclusions. The AC may grant or deny a request for
review. The AC may also, on its own motion, review a case within 60 days of the ALJ’s
decision. If the AC reviews a case, it will (1) uphold or reverse the ALJ’s decision or (2)
remand the case to the ALJ for a new decision, additional evidence or additional action.

Federal Courts Role

The Federal District Court is the first of three courts with which a claimant may file a suit
regarding SSA’s decision on his or her disability claim. When a suit is filed with the
Federal District Court, the court reviews all evidence on record as well as the ALJ’s and
AC findings and conclusions. The court then upholds or reverses SSA’s decision or
remands the case to SSA for a new decision. If it does not find in favor of the claimant,
he or she can continue to appeal to the U.S. Circuit Court of Appeals and ultimately to
the Supreme Court of the United States.




Disability Claims Overall Processing Times (A-01-08-18011)                                C-2
                                                             Appendix D

Agency Comments




Disability Claims Overall Processing Times (A-01-08-18011)
                                         SOCIAL SECURITY

MEMORANDUM


Date:      December 10, 2008                                                     Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      James A. Winn /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, “Disability Claims Overall Processing
           Times” (A-01-0818011)--INFORMATION


           Thank you for the opportunity to review and comment on the draft report. We appreciate OIG’s
           efforts in conducting this review. Our response to the report findings and recommendation is
           attached.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at (410) 965-4636.

           Attachment:
           SSA Response




           Disability Claims Overall Processing Times (A-01-08-18011)                                  D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT
REPORT, “DISABILITY CLAIMS OVERALL PROCESSING TIMES”
(A-01-08-18011)

Your analysis of processing times from a claimant’s perspective was detailed and
insightful. We agree that an overall processing time measure would be useful to the
agency, Congress, the public, and disability claimants. While we recognize disability
claim processing times need to be more transparent and meaningful, we have concerns
about the implementation of this additional performance measure. We previously
considered using this type of performance measure but did not move forward because we
lacked (and continue to lack) the ability to capture the management information
necessary to support this measure. We would need to make systems changes to capture
additional data (such as the time it takes to process the award), and making these changes
would require us to redirect already limited resources.

Also, there are variables that change from case to case, making it difficult to calculate an
overall processing time. For example, claimants may not appeal at all or if they do
appeal, some may appeal immediately and others may appeal at the end of the
60-day appeal period. Some claims that are appealed may be remanded back to a lower
adjudicative level, which will skew, or make it difficult to calculate, overall processing
time. In addition, we have no control over the judicial branch

Our response to your specific recommendation is as follows.

Recommendation

SSA should develop and publish a measure that shows the overall disability processing
time from the claimant’s perspective.

Comment

We agree that there would be a benefit to the agency, Congress, the public, and
prospective disability claimants. However, we have concerns about implementing this
additional performance measure. For example, an overall processing time measure
portrays a “worst case scenario” where the claimant proceeds through all levels of appeal,
which occurs in a relatively small handful of cases, but some observers may cite the
measure as applying to all cases. An additional complication is that multiple components
have different pieces of the overall processing time; these components use different
systems to collect and report disability process-related data. It would also be difficult to
define the reporting period because claims that go deep into the appeals process often are
pending for extremely long periods of time, and much of this time is not within our
control. While we agree with the intent of this recommendation, we must fully consider
and address these issues before adopting an overall processing time measure.




Disability Claims Overall Processing Times (A-01-08-18011)                               D-2
                                                                      Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts
   Judith Oliveira, Director, Boston Audit Division, (617) 565-1765

   David Mazzola, Audit Manager, (617) 565-1807

Acknowledgments

In addition to those named above:

   Phillip Hanvy, Senior Program Analyst

   Kevin Joyce, IT Specialist

   N. Brennan Kraje, Statistician

   Toni Paquette, Program Analyst

   Kathleen Toli, Auditor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-01-08-18011.




Disability Claims Overall Processing Times (A-01-08-18011)
                           DISTRIBUTION SCHEDULE


Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                     Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of
Investigations (OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations
(OER), and Office of Technology and Resource Management (OTRM). To ensure compliance with
policies and procedures, internal controls, and professional standards, the OIG also has a comprehensive
Professional Responsibility and Quality Assurance program.
                                            Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs
and operations and makes recommendations to ensure program objectives are achieved effectively and
efficiently. Financial audits assess whether SSA’s financial statements fairly present SSA’s financial
position, results of operations, and cash flow. Performance audits review the economy, efficiency, and
effectiveness of SSA’s programs and operations. OA also conducts short-term management reviews and
program evaluations on issues of concern to SSA, Congress, and the general public.
                                       Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and
operations. This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA
employees performing their official duties. This office serves as liaison to the Department of Justice on
all matters relating to the investigation of SSA programs and personnel. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.
                        Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative
material. Also, OCIG administers the Civil Monetary Penalty program.
                                    Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news
releases and in providing information to the various news reporting services. OER develops OIG’s media
and public information policies, directs OIG’s external and public affairs programs, and serves as the
primary contact for those seeking information about OIG. OER prepares OIG publications, speeches, and
presentations to internal and external organizations, and responds to Congressional correspondence.
                       Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also
coordinates OIG’s budget, procurement, telecommunications, facilities, and human resources. In
addition, OTRM is the focal point for OIG’s strategic planning function, and the development and
monitoring of performance measures. In addition, OTRM receives and assigns for action allegations of
criminal and administrative violations of Social Security laws, identifies fugitives receiving benefit
payments from SSA, and provides technological assistance to investigations.
